                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM                                     I


                                                                                                   1-




Case Number: I05080037
                                                                               11          Page 1 of 1



        This case arose as part of a proactive review into use of participant support funds and travel
                                                                                                             li
        funds. OIG reviewed several awards; however this award' seemed to have myriad financial
        issues that required further investigation. It appeared that the Principal Investigator PI)^,
        reallocated, without appropriate approvals, both travel funds and participant support funds to pay
        personal salary. After interviewing the Program ~ i r e c t o rit~ also
                                                                           ,    appeared that the records
        provided to date did not reflect expenditures under the award. We also discovered that the PI had
        another NSF award.

        The investigation was expanded to include the other award4 received by the same PI. OIG $ent a
        letter to the universitJ asking follow up questions regarding the initial award and an additidnal
        document request for the second award.

        After reviewing the documents, OIG determined that the PI had reallocated funds without prior
        approval. The University agreed and reimbursed NSF $16,050.35. Accordingly, this case is
        closed.




                                                                                                        /j
SF OIG Form 2 (1 1/02)                                                                                  11
